Performance Audit of the NDIIPP Cooperative
 Agreement with the University of Maryland
         Performance Audit Report

             December 8, 2010




                     Point of Contact:
                  David Zavada, Partner
                1701 Duke Street, Suite 500
                  Alexandria, VA 22314
             703-931-5600, 703-931-3655 (fax)
                 dzavada@kearneyco.com


          FOR PUBLIC RELEASE
                UNITED STATES GOVERNMENT
                Memorandum                                        Office of the Inspector General



TO:            Laura E. Campbell                                                   February 22, 2011
               Associate Librarian for Strategic Initiatives

FROM:          Karl W. Schornagel
               Inspector General

SUBJECT:       Audit of the NDIIPP Cooperative Agreement
               with the University of Maryland

We contracted with the independent certified public accounting firm of Kearney & Company 
(Kearney) to conduct an audit of the Library’s National Digital Information Infrastructure and 
Preservation Program (NDIIPP) Cooperative Agreement with the University of Maryland (UMD).  
The objective of the audit was to determine compliance with relevant Federal and University 
guidance and the terms of the Cooperative Agreement.  Specifically, Kearney evaluated the design 
and operating effectiveness of internal controls, assessed expenditures for grant compliance, and 
assessed the accuracy and validity of reporting to the Library.  The contract required that the audit 
be performed in accordance with generally accepted government auditing standards (GAGAS). 
 
The scope of the audit included obtaining an understanding of the policies, requirements, and 
processes of selected risk areas (salaries and wages, contracts, and indirect costs) to identify key 
internal controls.  During the audit Kearney applied internal control compliance and substantive 
testing procedures to the selected risk areas for expenses reported to the Library through March 31, 
2010.  The attached report presents the results of this audit for the period ended March 31, 2010.   
 
In its audit of UMD, Kearney found that internal controls were designed effectively, grant 
expenditures were in compliance with grant terms and conditions, and quarterly and annual 
reporting was accurate, valid, and in accordance with the Cooperative Agreement, except for the 
following items, which did not affect the opinion as a whole: 
 
      financial status forms 269a and 272 were not submitted timely; 
      a $3,750 contract expense variance was under reported to the Library as of September 30, 
         2009;  
      two expense errors were found for data reported to the Library, $14,420 of contract 
         expenses were incorrectly categorized as salary expenses for the quarter ended June 2005 
         and a credit adjustment of $2,353 was incorrectly included as other direct costs for the 
         quarter ended March 2008;  
      a coding error of $2,370 was found on form 269a for the period ending December 2007; 
      timesheets were not always approved as required by procedures; 
      errors were found in documented approvals of vendor invoices; and 
      indirect costs reported to the Library were overstated by $2,656.  
      
      
        
        
In connection with the contract, we reviewed Kearney’s report and related documentation and 
inquired of its representatives.  Our review, as differentiated from an audit in accordance with 
GAGAS, was not intended to enable us to express, and we do not express, an opinion on UMD’s 
compliance with grant terms, the accuracy and validity of its quarterly and annual reporting in 
accordance with the Cooperative Agreement, conclusions about the effectiveness of internal 
controls, or conclusions on compliance with laws and regulations.  Kearney is responsible for the 
attached auditor’s report dated December 8, 2010, and the conclusions expressed in the report.  
However, our review disclosed no instances where Kearney did not comply, in all material 
respects, with U.S. generally accepted government auditing standards.   
 
cc:  Chief, Support Operations 
       Supervisory Grants Management Officer 
       Director, NDIIPP Program Management 
       Chief Financial Officer 
                                  Performance Audit of the NDIIPP Cooperative Agreement
                                  With the University of Maryland
                                  Performance Audit Report


                       TABLE OF CONTENTS
                                                                                  Page #

EXECUTIVE SUMMARY                                                                     1

BACKGROUND                                                                            1

OBJECTIVES                                                                            2

SCOPE                                                                                 2

METHODOLOGY                                                                           3

AUDIT RESULTS                                                                         4

APPENDIX A – FINDINGS, RECOMMENDATIONS, AND                                           6
     MANAGEMENT RESPONSES




                                                                       December 8, 2010
                                                      Performance Audit of the NDIIPP Cooperative Agreement
                                                      With the University of Maryland
                                                      Performance Audit Report


EXECUTIVE SUMMARY

Kearney & Company, P.C. (Kearney) was retained by the Library of Congress (the Library) to
conduct a performance audit of the Library’s Cooperative Agreement with the University of
Maryland (UMD) (Contract #GA06C0007). Kearney executed the performance audit in
accordance with generally accepted government auditing standards (GAGAS) for performance
audits, as prescribed in the most current version of Government Auditing Standards (Yellow
Book) issued by the Comptroller General of the United States.

BACKGROUND

The Library, an agency in the Legislative Branch of the Federal Government, is the world’s
largest and most comprehensive library, maintaining a collection of more than 142 million
items—many of them unique and irreplaceable—in more than 470 languages. The Library’s
mission is to make its resources available and useful to Congress and the American people, and
sustain and preserve a universal collection of knowledge and creativity for future generations.

In 2000, the Library embarked on a mission to preserve digital cultural assets and make its
collections more publically available through the internet. During the same year, the Library
established the Office of Strategic Initiatives (OSI) to oversee this transition. Specifically, OSI is
tasked with:

   •   Consolidating the Library’s future digital goals
   •   Integrating the delivery of information technology (IT)
   •   Overseeing a national approach to digital preservation under the National Digital
       Information Infrastructure and Preservation Program (NDIIPP).

Through NDIIPP, the Library has undertaken an effort to preserve historically significant content
and capture digital content that is at risk of disappearing.

To accomplish this undertaking, the Library established a network with other Federal, research,
non-profit, philanthropic, library, and business organizations to select, collect, and organize
historically significant materials and information resources to provide for the long-term storage,
preservation, and authenticity of collected materials, and provide public access to the digital
heritage of the American people.




                                                                                           December 8, 2010
                                                  1
                                                     Performance Audit of the NDIIPP Cooperative Agreement
                                                     With the University of Maryland
                                                     Performance Audit Report


OBJECTIVES

Kearney was engaged to audit selected NDIIPP Cooperative Agreement recipients to determine
if financial reporting and data quality applications were in compliance with relevant Federal and
University guidance, and the Cooperative Agreement. The primary objectives of the audit were
to:

   •   Evaluate the design and operating effectiveness of internal controls for processes
       designated as risk areas
   •   Assess expenditures for compliance with grant terms and conditions for processes
       designated as risk areas
   •   Assess the accuracy and validity of quarterly and annual reporting in accordance with the
       Cooperative Agreement.

SCOPE

As part of its NDIIPP effort, the Library entered into a Cooperative Agreement on September 1,
2004 with UMD in the amount of $1,056,610. The Agreement’s period of performance was
amended to end on September 30, 2010. The objective of the Agreement was to preserve at-risk
digital traces of American venture creation and its associated business culture during the Dot-
Com Era.

Kearney’s audit included obtaining an understanding of the policies, requirements, and processes
of selected risk areas in order to identify key internal controls. The scope of the review included
expenses reported to the Library through March 31, 2010. Additionally, Kearney applied select
internal control, compliance, and substantive testing procedures for the following risk areas:

   •   Salaries and Wages
   •   Contracts
   •   Indirect Costs.

Risk areas were defined as total expense categories as identified in the chart below:

                                   Table 1 – Analysis of Costs

                            Cumulative Actual
                                                      Percentage of Total Cost
    Cost Category           Expenses (Library                                                Risk Area
                                                        Paid by the Library
                               Portion)**
Salaries and Wages                     $251,164                    30%                           Yes
Fringe Benefits                         $39,247                     5%                           No
Travel                                  $40,657                     5%                           No
Equipment                                    $0                     0%                           No
Contracts                              $286,443                    35%                           Yes
Other Direct Costs                      $11,592                     1%                           No
Indirect Costs                         $200,853                    24%                           Yes


                                                                                          December 8, 2010
                                                 2
                                                    Performance Audit of the NDIIPP Cooperative Agreement
                                                    With the University of Maryland
                                                    Performance Audit Report


**Amounts are the actual expenses reported to the Library through Year 5, September 30, 2009.

The source of Kearney’s testing populations was the expense ledger provided by UMD. The
Financial Status Reports (FSR) and the Budget to Actual Spreadsheets were provided by OSI.
Evidence was primarily provided by UMD in soft and hard copy formats. Kearney conducted
this performance audit from March 2010 through December 2010, including a site visit to UMD
during the week of May 10, 2010.

Kearney identified the financial systems used during the receipt and execution of the Library
grant. During walkthroughs of the systems, Kearney noted no instances of noncompliance of
UMD’s financial management system with the requirements set forth in Office of Management
and Budget (OMB) Circular A-110. No additional IT controls were tested as a part of this audit.

Kearney did not review the Automated Standard Application for Payments (ASAP) system
information or cost sharing information with the intent of testing controls. For ASAP, Kearney
substantively reviewed the drawdowns to ensure they matched the amounts authorized by the
Library. Kearney relied on the Department of the Treasury (Treasury), Financial Management
Service’s (FMS) controls to ensure only authorized individuals had access to draw on grant
funds. Cost sharing was reviewed for informational purposes, as Kearney only tested the cost
sharing information to ensure the matching ratio was consistent with the Cooperative Agreement.

METHODOLOGY

Kearney conducted this performance audit in accordance with GAGAS for performance audits,
as prescribed in the most current version of the Yellow Book issued by the Comptroller General
of the United States. Those standards require that Kearney plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and conclusions
based on the audit objectives. Kearney believes that the evidence obtained provides a reasonable
basis for the findings and conclusions based on the audit objectives. As a basis for Kearney’s
performance audit, the audit team used the Cooperative Agreement; OMB Circular A-21, Cost
Principles for Educational Institutions; OMB Circular A-110, Uniform Administrative
Requirements for Grants and Other Agreements with Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations; and OMB Circular A-133, Audits of States,
Local Governments, and Non-Profit Organizations to determine whether UMD was in
compliance with the Cooperative Agreement.

To meet the performance audit objectives, the audit team specifically:

   •   Obtained an understanding of UMD’s financial reporting, information systems, salary
       and wage expenses, contracts, and indirect costs processes related to the grant by
       obtaining and reviewing applicable laws, regulations, and contract documents;
       conducting interviews and discussions with key personnel; and reviewing transactional-
       level documentation. Further, Kearney confirmed its understanding of the processes and
       documented key controls for the selected processes through the completion of
       walkthroughs. These procedures are the basis for evaluating the design and operating
       effectiveness of internal controls for processes designated as risk areas

                                                                                         December 8, 2010
                                                3
                                                     Performance Audit of the NDIIPP Cooperative Agreement
                                                     With the University of Maryland
                                                     Performance Audit Report


   •    Tested expenditures for compliance with grant terms and conditions for processes
        designated as risk areas. Testing included the validation of expense populations,
        selection of samples, and review of supporting documentation for each sample to ensure
        validity and compliance with contract requirements and select key controls
   •    Assessed the accuracy and validity of quarterly and annual reporting in accordance with
        the Cooperative Agreement through a reconciliation of the grantee expense detail to the
        amounts reported on the FSRs, review of the submission dates for all FSRs, recalculation
        of cost sharing totals, and review of UMD draws made via ASAP
   •    Verified that UMD’s financial management systems supported the following items,
        which are required by OMB Circular A-110:

        -   Records that identify adequately the source and application of funds for federally-
            sponsored activities. These records must contain information pertaining to Federal
            awards, authorizations, obligations, unobligated balances, assets, outlays, income, and
            interest
        -   Adequate safeguards of all assets and assurance that they are used solely for
            authorized purposes
        -   Comparison of outlays with budget amounts for each award. Whenever appropriate,
            financial information should be related to performance and unit cost data
        -   Written procedures for determining the reasonableness, ability for allocation, and
            allowability of costs in accordance with the provisions of the applicable Federal cost
            principles and the terms and conditions of the award
        -   Accounting records, including cost accounting records that are supported by source
            documentation.

AUDIT RESULTS

When conducting the performance audit, Kearney gathered sufficient evidential matter to support
its findings and conclusions. All findings were documented in formal Notifications of Finding
and Recommendation (NFR), to include the condition, criteria, cause, effect, and
recommendation for each, and were submitted to UMD management for review and comments.
The condition, recommendation, management response, and auditor response (if applicable) is
provided for each finding in Appendix A of this report. Kearney summarized the findings
identified while conducting the audit; the following is a listing of findings discovered as a result
of testing:

   1.   Forms 269a and 272 were Not Submitted Timely
   2.   Contract Population Does Not Tie to Budget Spreadsheet
   3.   Salary Population Does Not Tie to Budget Spreadsheet
   4.   Coding Error of Expenses Made by University of Maryland (UMD) Management
   5.   Timesheet Not Signed by Principal Investigator (PI)
   6.   E-mail Approval by PI Could Not be Traced to Invoice
   7.   Calculation of Indirect Costs is Incorrect.

Kearney concludes that internal controls are designed effectively for the processes designated as
risk areas, grant expenditures are in compliance with grant terms and conditions for processes

                                                                                          December 8, 2010
                                                 4
                                                   Performance Audit of the NDIIPP Cooperative Agreement
                                                   With the University of Maryland
                                                   Performance Audit Report


designated as risk areas, and quarterly and annual reporting is accurate and valid, and in
accordance with the Cooperative Agreement, except for the instances listed above and further
described in Appendix A.

                                *       *      *      *         *

This report is intended solely for the information and use of Library management, those charged
with governance and others within the Library, the Inspector General of the Library, OMB, the
Government Accountability Office, and Congress, and is not intended to be and should not be
used by anyone other than these specified parties.




December 8, 2010




                                                                                        December 8, 2010
                                               5
                                                    Performance Audit of the NDIIPP Cooperative Agreement
                                                    With the University of Maryland
                                                    Performance Audit Report


APPENDIX A – FINDINGS, RECOMMENDATIONS, AND MANAGEMENT
RESPONSES

1.     Forms 269a and 272 were Not Submitted Timely

The Cooperative Agreement between the Library of Congress (the Library) and the University of
Maryland (UMD) requires that Financial Status Reports (FSR) be submitted no more than 45
days after the end of each quarter during the Period of Performance. While reviewing the FSR
Forms 269a and 272 submissions, Kearney & Company, P.C. (Kearney) noted that five of 40
required submissions were submitted after the required due dates; the forms were completed 14
to 133 days after the required deadline.

The table below provides information on the number of days over the deadline for each FSR that
was not submitted timely.

                                 Form 269a            Form 272
              Year 1
               Qtr 1             133 days             On Time
               Qtr 2             47 days              On Time

              Year 3
               Qtr 3             116 days             On Time
               Qtr 4             25 days              On Time

              Year 4
               Qtr 1             103 days             On Time
               Qtr 2             14 days              On Time

Recommendation:

Kearney recommends that UMD management ensure that the FSRs are completed within the
amount of days specified in the Cooperative Agreement.

Management Response:

Management concurs with the finding, but not the recommendation.

The University agrees with the finding, but not the recommendation. It is noted that the auditors
did a 100% audit of the required reports. The late filing of reports was known by management
indicating that the system of controls was working. The failure to report timely is the direct
result of the delay in subcontractors providing cost sharing information to UMD. UMD will
redouble its effort to acquire cost sharing information from the subcontractors in a timely
manner.




                                                                                         December 8, 2010
                                                6
                                                   Performance Audit of the NDIIPP Cooperative Agreement
                                                   With the University of Maryland
                                                   Performance Audit Report


Auditor Response:

The University should continue to employ internal controls and mechanisms needed to submit
required reporting information to the Library in a timely manner. While timely reporting may
have been impeded by subcontractor reporting, it is the University’s contractual requirement to
report within the timeframes provided by the Library. As discussed in the University’s response,
if efforts to acquire cost sharing information from the subcontractors do not result in any
improvements, the University should consider whether to continue with those subcontractor
relationships or work with the Library to obtain its support in gathering this information.

2.     Contract Population Does Not Tie to Budget Spreadsheet

The total contract expense population provided by University of Maryland (UMD) management
totaled $290,193 through September 30, 2009. The total contract amount reported on the Budget
to Actual Spreadsheet was $286,443 through September 30, 2009. The difference of $3,750 was
misclassified on the Budget to Actual Spreadsheet that was submitted to the Library of Congress
(the Library). Kearney & Company, P.C. (Kearney) noted that the total expense population
through September 30, 2009 tied to the Budget to Actual Spreadsheet in total. Kearney was
unable to identify which cost category included the $3,750 of contract costs.

Recommendation:

Kearney notes that as of September 30, 2009, the Library no longer requires the Budget to Actual
Spreadsheet to be submitted by National Digital Information Infrastructure and Preservation
Program (NDIIPP) grantees; therefore, no specific recommendations are necessary. In general,
Kearney suggests that UMD management review controls over reporting to ensure submissions
are in accordance with Government requirements, and sufficient controls are designed and
operating effectively over reporting processes.

Management Response:

Management concurs with the finding and recommendation.

The University agrees with the finding and that “no specific recommendations are necessary.”
The error was on an ad hoc management report not required under Federal Office of
Management and Budget Circular A-110. Since the report requirement was ad hoc, so must be
the review process. The University has a strong system of controls designed to operate
effectively over the reporting processes for those reports that are required under federal
regulations such as OMB A-110. The “Effect” as stated by the Auditor, is that the standard
OMB A-110 “Financial Status Report” was accurate and no change was necessary. Also stated
in the finding, was that “the Library no longer requires the “Budget to Actual Spreadsheet.”

3.     Salary Population Does Not Tie to Budget Spreadsheet

During testing, Kearney & Company, P.C. (Kearney) noted two quarters in which the amount
reported in the Budget to Actual Spreadsheet and expense population did not match.

                                                                                        December 8, 2010
                                               7
                                                   Performance Audit of the NDIIPP Cooperative Agreement
                                                   With the University of Maryland
                                                   Performance Audit Report


During the period of April 1, 2005 through June 30, 2005, the University of Maryland (UMD)
incorrectly categorized $14,420 of “contract” expenses as “salary” expenses.

During the period of January 1, 2008 through March 31, 2008, there was a credit adjustment that
was incorrectly added on the “other direct” cost category line for $2,353.

Recommendation:

Kearney notes that as of September 30, 2009, the Library no longer requires the Budget to Actual
Spreadsheet to be submitted by National Digital Information Infrastructure and Preservation
Program (NDIIPP) grantees; therefore, no specific recommendations are necessary. In general,
Kearney suggests that UMD review its controls over reporting to ensure submissions are in
accordance with Government requirements, and sufficient controls are designed and operating
effectively over reporting processes.

Management Response:

Management concurs with the finding and recommendation.

The University agrees with the finding and that “no specific recommendations are necessary.”
The balance of this response is the same as #2.

4.     Coding Error of Expenses Made by University of Maryland (UMD) Management

During testing, Kearney & Company, P.C. (Kearney) noted the amount reported on the Financial
Status Report (FSR) Form 269a for the period ending December 31, 2007 totaled $550,155.69,
but the cumulative expense detail provided by UMD for the period ending December 31, 2007
totaled $547,784.82, which is a difference of $2,370.87.

Recommendation:

Kearney recommends that UMD correctly code expenses in its system and provide training or
refresher e-mails to employees to ensure proper procedures are being followed.

Management Response:

Management concurs with the finding and recommendation.

The University agrees with the finding and the recommendation, but notes that the Auditor made
an error in the amount that had been credited to the award. The proper amount of the credit was
$3,081.36. The error was associated with an unusual transaction. A vendor gave the University
a credit for services rendered and when posted in the accounting system, the transaction was
posted as income instead of negative expense. The error in coding was discovered by the
University and corrected within 60 days of the event and three years prior to the review by the
Auditors.


                                                                                        December 8, 2010
                                               8
                                                    Performance Audit of the NDIIPP Cooperative Agreement
                                                    With the University of Maryland
                                                    Performance Audit Report


5.     Timesheet Not Signed by the Principal Investigator (PI)

Kearney & Company, P.C. (Kearney) noted that in three of 10 samples, timesheets for hourly
employees were missing evidence of the PI’s approval.

Recommendation:

Kearney recommends that the University of Maryland (UMD) be more diligent about ensuring
each timesheet is reviewed and approved by the PI, and ensuring the approval is evidenced in
accordance with UMD internal requirements.

Management Response:

Management does not concur with the finding and recommendation.

The University disagrees with the finding. The University of Maryland’s internal requirements
do not state that the PI must approve all hourly timesheets. The University system of salary
certification is compliant with OMB Circular A-21 and approved by its cognizant agency the
Federal Department of Health and Human Services. The University system states, under section
#7 “Authorized Signatures” the following: Deans, directors, department chairpersons, and senior
faculty [salaried employees] may certify for all personnel. Faculty and associate staff [salaried
employees] preferably would sign their own effort reports. Generally speaking, business
managers may certify for classified employees [including hourly employees] only.

Auditor Response:

Kearney based testing on the controls that were presented during the walkthroughs. The
University did not provide policies or procedures documenting a control structure different from
what was presented to Kearney during the walkthroughs.

6.     E-mail Approval by the Principal Investigator (PI) Could Not be Traced to Invoice

University of Maryland (UMD) internal requirements require approval from the PI on all
invoices. Kearney & Company, P.C. (Kearney) noted that three of 20 invoice samples were
missing PI approvals during contract expense testing.

UMD provided e-mail approvals as support; however, Kearney was unable to trace the e-mail
approvals to particular invoices.

Recommendation:

Kearney recommends that if the PI approves an invoice by e-mail, he/she should include the
invoice number, the amount of the invoice, the vendor, and the date of the invoice. Further,
Kearney recommends that UMD policy and procedures be updated to include this requirement,
and that all PIs are made aware of this requirement.


                                                                                         December 8, 2010
                                                9
                                                    Performance Audit of the NDIIPP Cooperative Agreement
                                                    With the University of Maryland
                                                    Performance Audit Report


Management Response:

Management concurs with the finding, but not the recommendation.

The University agrees with the finding, but not the recommendation. The University feels that it
has already enhanced the approval process for subrecipients. During the life of this agreement
and before the auditors reviewed this award, the University implemented a stronger process for
approving invoices from subrecipients that included a “Subrecipient Monitoring Invoice
Checklist.”

We will continue our role in providing sponsored research training to the UMD community and
will schedule specific subaward classes in the first quarter of the New Year and subrecipient
invoice review will be a main topic. We will continue to provide updates on sponsored program
trainings and procedural documentation via our listservs and our website.

Auditor Response:

The response provided by the University describes a process improvement that may have already
remedied this finding; however, the Subrecipient Monitoring Invoice Checklist was not provided
for review to support its application to any of the invoices reviewed during testing. The
University should continue to monitor and improve controls surrounding its invoice review,
approval, and payment processes.

7.     Calculation of Indirect Costs is Incorrect

During testing of indirect costs, Kearney & Company, P.C. (Kearney) noted that the University
of Maryland (UMD) reported an indirect cost amount to the Library of Congress (the Library)
that was overstated by $2,656.

Recommendation:

Kearney recommends that UMD include only the first $25,000 of subcontract costs in its indirect
cost calculation per Office of Management and Budget (OMB) guidance.

Management Response:

Management concurs with the finding and recommendation.

The University agrees with the finding and recommendation. This was a coding error. The
University has a subcode where the first $25,000 of each subaward is to be charged and indirect
cost is charged on that direct cost. Another subcode is used for the balance of the cost of the
subaward. Charges to that subcode are not burdened with indirect cost. An error in coding
occurred resulting in the automatic program charging of $2,656 in indirect cost to the project.
The error was discovered by the University and corrected prior to the review by the auditors.



                                                                                         December 8, 2010
                                               10
